                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A11100069                                                                         Page 1 of 1



                 Our office received an allegation that the proposal 1 of a PI2 contained plagiarized material.
         Our review of the matter determined that the plagiarism was minimal and the proposal contained
         citation errors. We concluded the PI's actions did not rise to the level of research misconduct.
         Accordingly, this case is closed with no further action taken.




         2




NSF OIG Fonn 2 (11102)
